STATUS OF FAA’S MAJOR ACQUISITIONS: COST
GROWTH AND SCHEDULE DELAYS CONTINUE TO
    STALL AIR TRAFFIC MODERNIZATION
        Federal Aviation Administration

         Report Number: AV-2005-061
          Date Issued: May 26, 2005
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Status of FAA’s Major               Date:    May 26, 2005
           Acquisitions: Cost Growth and Schedule Delays
           Continue To Stall Air Traffic Modernization
           AV-2005-061
  From:                                                           Reply to
           David A. Dobbs                                         Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Federal Aviation Administrator

           This is our third annual report on the Federal Aviation Administration’s (FAA)
           major acquisitions, which are part of its modernization effort. At the request of
           the Committee on Transportation and Infrastructure, we conducted a review of
           changes in FAA’s overall approach to air traffic modernization and its potential
           impact on capacity. Congress appropriated $2.5 billion in Facilities and
           Equipment (F&E) funding for fiscal year (FY) 2005 to increase the capacity,
           efficiency, security, and safety of the National Airspace System (NAS). The
           objective of our review was to update the cost and schedule of major acquisitions
           and identify key issues affecting their implementation. Exhibit A provides details
           on our objective, scope, and methodology.

           This report covers 16 major acquisition programs that have a current combined
           estimated cost of about $14.5 billion in F&E funds. These projects include
           developing new automated controller tools, acquiring new technologies to prevent
           accidents on runways and taxiways, and modernizing FAA facilities that manage
           large segments of airspace over the Atlantic and Pacific Oceans.

           We found that cost growth, schedule delays, and performance shortfalls with
           FAA’s major acquisitions continue to stall air traffic modernization. Overall,
           11 of the 16 projects we reviewed will experience a total cost growth of about
           $5.6 billion, and 9 of the 16 will have schedule slips from 2 to 12 years, based on
           current estimates. Two programs have also been deferred. Exhibit B provides
           details of the cost and schedule variances for the 16 projects. Since we last
                                                                                                                     2


reported on these projects in June 2003, 1 the estimated cost of 6 of the 16 projects
has increased by about $1.7 billion. While some cost growth can be attributed to
FAA’s efforts to update the cost, schedule, and performance baselines 2 of its
major acquisitions, much work remains to be done before the Agency has accurate
and reliable information for its acquisitions. We found that 9 of the 16 programs
continue to have uncertain cost, schedule, or performance baselines. Many
programs continue to be plagued by requirement changes, technical difficulties, or
reduced performance capabilities. Consequently, it is not clear how much these
programs will cost, how long it will take to complete them, or what capabilities
they will finally deliver.

As we recently reported, 3 there has been cost growth with major acquisitions since
the establishment of the new Air Traffic Organization (ATO), but the bulk of the
cost growth represented by the $5.6 billion occurred before the establishment of
the new organization. It is also a reflection of the ATO’s efforts to re-baseline a
number of projects, which identified costs that have been pent up for some time
and have simply not been recognized. 4

On May 4, 2005, we testified before the Committee on Transportation and
Infrastructure Subcommittee on Aviation and provided our perspectives on the
Aviation Trust Fund and financing the FAA. A major theme addressed in our
testimony dealt with FAA getting a handle on major acquisitions and determining
how much they will cost and when they will be completed. This is critical in order
to establish current cash flow requirements and future funding requirements.

FAA recognizes the need to obtain reliable information for its major acquisitions
and is planning to update a number of program baselines. It is important for FAA
to complete these plans to re-baseline the programs within its major acquisition
portfolio and ensure the accuracy and reliability of the program baselines. When
baselines are not met, the Agency cannot accurately anticipate either future
resource requirements or capabilities. Additionally, postponed benefits from
un-fielded systems create inefficiency in the NAS.

FAA needs to develop a comprehensive strategy for modernizing the NAS,
outlining how the Agency’s major acquisition programs will address its mission of

1
    OIG Report Number AV-2003-045, “Status of FAA’s Major Acquisitions,” June 26, 2003. OIG reports and
    testimonies can be found on our website: www.oig.dot.gov.
2
    For the purposes of our report, the term “baseline” will refer to the cost, schedule, and performance parameters of
    major acquisitions.
3
    OIG Testimony Number CC-2005-022, “Next Steps for the Air Traffic Organization,” April 14, 2005.
4
    According to FAA officials, the Agency now requires technology refreshment cost for NAS equipment to be
    included in the acquisition program baseline in an effort to fully disclose a program’s true F&E life-cycle cost.
    Technology refreshment is the periodic replacement of commercial off-the-shelf system components and
    commercially available software within the larger NAS system to assure continued supportability through an
    indefinite service life.
                                                                                 3


increasing capacity, efficiency, and safety in the NAS. FAA is requesting less for
modernization than it did last year and has canceled or deferred several projects.
At the same time, demand for air travel is returning to pre-September 11th levels,
and some airports, such as Chicago O’Hare, have experienced increased delays
that required FAA to impose restrictions on flight operations. It is important that
FAA keep air traffic control modernization on track to help meet the demand for
air travel.

Although the demand for air travel continues to rise, FAA is now emphasizing
sustaining the NAS, as opposed to increasing capacity, through its major
acquisitions portfolio. While FAA officials indicated budget reductions have
forced the Agency to rethink its modernization strategy, cost growth and schedule
delays with major acquisition projects have significantly affected FAA’s efforts to
modernize the NAS. In an era when F&E funding levels are down from previous
levels, the crucial question is how FAA can address both capacity and
affordability at the same time.

Given the cost growth and schedule slips with major acquisitions and the declining
level of F&E funds, FAA must determine how to get the most out of its limited
resources. The challenges facing FAA with respect to its major acquisition
programs are developing reliable cost, schedule, and performance baselines for its
existing projects and determining the total cost to complete implementation of the
projects. FAA also needs to specify what capabilities and benefits each project
provides the NAS, specify when the benefits will be delivered, and justify why the
project should be continued.

In light of our finding, we are recommending that FAA develop a comprehensive
strategy for modernizing the NAS to ensure major acquisitions are delivered
within cost, schedule, and performance milestones. As FAA updates its major
acquisition programs’ cost and schedule baselines, the Agency needs to

      • re-validate the capabilities and benefits that each project (i.e., STARS,
        WAAS, ASR-11, NIMS, ASDE-X, ADS-B, and ITWS 5 ) is expected to
        provide the NAS and determine when the benefits will be delivered. If the
        expected benefits justify continuing the project, determine the cash flow
        requirements needed to complete implementation of the system, and

      • report to Congress on the results of this re-validation effort, and provide
          future funding requirements for the F&E account for all major acquisition
          programs, including those that have been deferred.



5
    See Exhibit C for a description of program acronyms.
                                                                                   4


On May 17, 2005, we met with FAA program officials to obtain their oral
comments to our report. Based on FAA comments, we made changes to the report
as appropriate. FAA officials generally agreed with our conclusions and
recommendations. We are requesting that FAA provide written comments to the
final report within 30 calendar days.


BACKGROUND
In the early 1980s, FAA initiated an effort to modernize its air traffic control
system. The modernization effort includes the acquisition of new equipment for
surveillance, automation, and communications systems. The total modernization
effort is expected to cost $48.6 billion through 2007. Major acquisitions represent
FAA’s primary efforts to modernize or add new capabilities to the NAS.

Historically, a significant portion of FAA’s investment in air traffic control
modernization is for enhancing capacity and efficiency and replacing aging
equipment in the NAS. However, FAA modernization projects have experienced
considerable cost growth, schedule slips, and shortfalls in performance, which
have shifted FAA’s efforts from enhancing capacity in the NAS to sustaining the
NAS.

FAA is requesting $2.4 billion in F&E funds to modernize the NAS for FY 2006,
which is slightly less than the FY 2005 level of $2.5 billion and significantly less
than the $2.9 billion level of FY 2004.


RESULTS IN BRIEF
FAA has made progress in updating the cost, schedule, and performance baselines
of a number of major acquisitions, including the STARS, WAAS, and FTI
programs. By updating the acquisition program baselines of these projects, FAA
should be better positioned to anticipate resource requirements and determine
whether capabilities can be delivered as scheduled. However, we found that cost
growth, schedule delays, and performance shortfalls with major acquisition
programs continue to stall air traffic modernization.

Our review of 16 major acquisitions shows 11 of these projects have experienced a
total cost growth of over $5.6 billion (from $8.9 billion to $14.5 billion), which is
more than double the amount of FAA’s FY 2005 F&E funding level ($2.5 billion).
Additionally, 9 of the 16 projects have had schedule delays ranging from 2 to
12 years, while two other projects (LAAS and NEXCOM) have been deferred
pending further evaluation on the merits of moving forward with these projects.
Not withstanding FAA’s decision to defer NEXCOM, the Agency still must deal
with a number of issues that the program was supposed to address, including how
                                                                                                           5


  to fund and sustain its aging radio control equipment and concerns about radio
  frequency depletion.

  Since we last reported on these 16 projects in June 2003, the estimated cost of 6 of
  the 16 projects has increased by about $1.7 billion; this includes cost growth of
  about $1.1 billion for STARS and $400 million for WAAS. Although FAA
  updated the baselines for a number of these programs, we identified nine that do
  not have reliable cost, schedule, or performance baselines, meaning that FAA
  cannot effectively plan resource requirements, manage the programs, or meet
  expectations for improving the safety of the NAS and increasing its capacity.

  These programs continue to be plagued by requirement changes, technical
  difficulties, or reduction in performance capabilities. Consequently, it is not clear
  how much these programs will cost, how long it will take to complete them, or
  what capability will finally be delivered. Table 1 highlights six projects requiring
  key Agency decisions before they can be fully implemented into the NAS, and
  Exhibit D provides details on the cost, schedule, and key issues affecting
  implementation of the 16 projects under review.


  Table 1. Programs Requiring Key Agency Decisions Before FAA
                   Completes Implementation
         Program*               Estimated Program          Percent        Implementation           Schedule
                                 Costs (in Millions)        Cost              Schedule              Delay
                                Original    Current        Growth       Original    Current
Wide Area Augmentation           $892.4 $3,339.6**          274%       1998-2001 2005-2013         12 years
System
Standard Terminal                   $940.2 $2,760.4***         194%       1998-2005 2002-2012       7 years
Automation Replacement
System
FAA Telecommunication               $205.5      $310.2          51%       2002-2008 2004-2008       2 years
Infrastructure
Airport Surveillance                $743.3 $1,003.0             35%       2000-2005 2003-2013       8 years
Radar-11
Integrated Terminal Weather         $276.1      $286.1           4%       2002-2003 2003-2009       6 years
System
En Route Automation               $2,154.6 $2,141.9             N/A       2009-2010 2009-2010        N/A
Modernization
* A detailed listing of cost and schedule variances of all 16 systems can be found in Exhibit B.
**Cost includes $1.2 billion to acquire geostationary satellites.
***Cost of preferred STARS solution to deploy to 162 sites.

  Even though FAA updated the cost, schedule, and performance baselines for
  STARS, WAAS, FTI, ASR-11, and ITWS, the Agency has a number of key
  decisions to make and implementation issues to resolve before these programs can
  be fully deployed in the NAS. For example:
                                                                                                        6


    • The Standard Terminal Automation Replacement System (STARS)
       program replaces controller and maintenance workstations with color displays,
       processors, and computer software. As we recently reported,6 faced with
       additional cost growth in the STARS program, FAA is rethinking its terminal
       modernization approach—a long overdue step that should have been taken
       several years ago. FAA re-baselined the STARS program in April 2004,
       limiting deployment to 50 planned sites 7 for $1.46 billion, after receiving a
       revised cost estimate of more than $2 billion for all sites. FAA revised its
       terminal modernization plan by committing to (1) consider retaining Common
       ARTS at some sites as an alternative to STARS, and (2) re-evaluating STARS
       costs and deployments before considering further STARS purchases in
       FY 2005.

       FAA intends to re-baseline STARS again in June 2005. If the Agency
       implements its preferred STARS solution, which is to deploy STARS to
       162 sites as originally planned, the cost would total $2.76 billion, which
       includes technology refresh. Thus, a program that was originally estimated to
       cost less than $1 billion could cost almost $3 billion, and deployment to all
       sites may not occur until 2012—a 7-year delay from its originally planned
       completion date.

       However, the cost to complete terminal modernization still remains uncertain,
       and FAA needs to make a decision about what technology will be expected to
       complete terminal modernization based on cost, time, and capabilities.
       Because of cost growth and schedule delays, of urgent concern is the state of
       aging displays at four large sites, such as Chicago and Denver. Under FAA’s
       current plan, the Agency will not begin installing STARS and replacing the
       aging displays at the large sites until sometime in FY 2008.

    • The Wide Area Augmentation System (WAAS) program provides the
       augmentation needed to make the Global Positioning System (GPS) satellite
       fully usable for en route, terminal, and non-precision approaches. FAA
       re-baselined WAAS in May 2004, and program costs increased from
       $2.9 billion to $3.3 billion. FAA now intends to provide a capability called
       “LPV” in late 2008, which is less than Category 1 8 performance. Key risks to
       WAAS implementation include the development of flight procedures and user
       equipage.



6
    OIG Report Number AV-2005-016; “Terminal Modernization: FAA Needs To Address Its Small, Medium, and
    Large Sites Based on Cost, Time, and Capability, ” November 23, 2004.
7
    FAA committed STARS deployment to 50 sites, but congressional language limited deployment to 47 sites.
8
    Category 1 precision approach has a 200-foot ceiling/decision height and visibility of ½ mile.
                                                                                7


  We note that WAAS will primarily benefit general aviation users, because
  commercial airliners already have on-board capabilities similar to WAAS.
  Additionally, it is still an open question whether FAA will reduce its operating
  costs with WAAS implementation because it has yet to determine which
  surface navigation aids will be replaced in favor of WAAS.

  FAA still intends to pursue Category 1 capability and plans to make a formal
  decision in 2007. However, to provide Category 1 capability, FAA is now
  dependent on the Department of Defense (DOD) enhancement to GPS satellite
  (to include a second civil signal for aviation use). Given shifting benefits and
  uncertainty regarding DOD’s plans, we question whether or not FAA should
  commit funds to develop Category 1 capabilities. A decision not to pursue
  Category 1 would significantly reduce WAAS’s $3.3 billion cost.

• FAA Telecommunication Infrastructure (FTI) program is key to FAA’s
  efforts to transition from supporting multiple telecommunication networks to a
  single network and thereby reducing operating costs. FAA re-baselined FTI in
  December 2004. We note that program costs have increased from $1.9 billion
  to $2.4 billion, the bulk of which ($2.1 billion) will be funded from the
  Operations account.

  Even though FAA re-baselined the FTI program, there are a number of issues
  that could affect its cost and schedule. For example, FAA has dramatically
  increased the number of sites scheduled to receive FTI from 1,374 to 4,463,
  and some sites are experiencing delays implementing FTI. FAA was planning
  to transition approximately 450 circuits to FTI operations by the end of
  November 2004; however the Agency was only successful in transitioning
  about 200 circuits—completing less than 50 percent of its planned schedule.
  A delay to the FTI implementation schedule would translate directly into
  increases in operations costs and reduced cost savings due to the prolonged
  sustainment of legacy networks. We note that FAA has already reduced FTI
  cost savings by $30 million ($820 million to $790 million) because of delays
  in implementing FTI.

• The Integrated Terminal Weather System (ITWS) provides air traffic
  managers with a forecast of weather conditions near airports. FAA re-
  baselined the ITWS program in May 2004, at which time FAA added a new
  enhancement to the production system, which provides more advance
  notification of when and where bad weather will occur. However, because
  production costs have increased from $360,000 to $1.1 million per system,
  only 22 of the planned 34 production systems will be deployed through
  2009—6 years behind schedule. FAA plans to re-baseline ITWS in 2007, at
                                                                                   8


    which time a deployment decision will be made regarding the remaining
    12 systems.

It is important for FAA to complete its plans to re-baseline these programs within
its major acquisition portfolio and to ensure the accuracy and reliability of the
programs’ baselines. When baselines are not met, the Agency cannot accurately
anticipate either resource requirements or capabilities in the future. Additionally,
postponed benefits from un-fielded systems create inefficiency in the NAS.

FAA is now in the unenviable position of funding projects that have been delayed
for years while embarking on an ambitious $2.1 billion project called the En Route
Automation Modernization (ERAM) program. ERAM is one of the largest and
most complex acquisitions in FAA’s modernization portfolio. In essence, ERAM
replaces the brain and central nervous system for facilities that manage
high-altitude traffic. By 2007, FAA will be spending $30 million per month alone
on the program. FAA is pursuing ERAM through a long-term, cost-plus contract
that places the majority of risk with the Government.

FAA’s annual funding requirements for STARS, WAAS, ASR-11, and ERAM
will increase from 26.9 percent to 53.6 percent over a 4-year period beginning in
FY 2004 (see Figure 1). Consequently, a significant portion of the available funds
used to support air traffic acquisitions through 2007 will be used to fund these four
projects alone. Moreover, in June 2005, FAA is planning to make a decision on
whether to acquire additional STARS and ASR-11 systems. A decision to acquire
additional systems may require significant funding increases for the two programs,
which will further reduce the available funds used to support air traffic
acquisitions. This leaves little room for cost growth, schedule delays, or adding
new initiatives.
                                                                                                                   9


    Figure 1. Funding Requirements of Four Key Modernization
        Projects in Relation to Available Air Traffic Control
                     Modernization Funding*

         2,000
                            $1,740 m


         1,600
                                                 $1,454 m

                                                                       $1,254 m              $1,254 m
 Dollars
          1,200                                                                                                ATC Mod
    in
 Millions



           800
                                                                                                               Total
                                                                                             $669.7 m          STARS
                                                                       $618.9 m                                ERAM
                                                                                                               WAAS
                                                  $596 m                                      53.6%
                                                                        49.3%                                  WAAS
                                                                                                               ASR-11
           400                                     41.0%
                            $468.3 m                                                                           ASR 11
                                                                                                               ERAM
                             26.9%



                  0
                           FY 2004               FY 2005               FY 2006              FY 2007


                  *The ATC Modernization amount represents a portion of the total F&E funding level. For
                   example, in FY 2005, the F&E funding level was $2.5 billion. Of that amount, $1.4 billion
                   was used to develop and acquire air traffic control modernization projects such as STARS,
                   ERAM, WAAS, and ASR-11.

FAA needs to develop a comprehensive strategy for modernizing the NAS to
ensure major acquisitions are delivered within cost, schedule, and performance
milestones. As the demand for air travel continues to rise, FAA is now
emphasizing sustaining the NAS, as opposed to increasing capacity. According to
FAA officials, the Agency is planning to spend just over $230 million in 2005 on
capacity enhancement projects such as WAAS and ASDE-X, which represents
about 16 percent of the total funds used to develop and acquire air traffic control
modernization projects.

While FAA officials indicated that budget reductions have forced the Agency to
rethink its modernization strategy, cost growth and schedule delays with major
acquisition projects have also significantly affected FAA’s efforts to modernize
the NAS. In an era when F&E funding levels are down, trade-offs must be made,
so the crucial question is how FAA can address both capacity and affordability.

As FAA updates its major acquisition program baselines, the Agency needs to
revalidate program benefits to determine what capacity benefits, if any, can be
delivered. The Agency also needs to identify which technologies will be required
to address its capacity needs and determine whether it is cost effective to continue
funding programs that provide little or no benefit.
                                                                                  10


Given the cost growth and schedule slips with major acquisitions and the declining
level of F&E funds, FAA must determine how to get the most out of its limited
resources. The challenges facing FAA with respect to its major acquisition
programs are developing reliable cost, schedule, and performance baselines for its
existing projects and determining the total cost to complete implementation of the
projects. FAA also needs to specify what capabilities and benefits each project
provides the NAS, specify when they will be delivered, and justify why the project
should be continued.

In summary, FAA needs to develop a comprehensive strategy for modernizing the
NAS to ensure major acquisitions are delivered within cost, schedule, and
performance milestones. As FAA updates its major acquisition programs’
baselines, the Agency needs to re-evaluate the capabilities and benefits that
STARS, WAAS, ASR-11, NIMS, ASDE-X, ADS-B, and ITWS are expected to
provide the NAS, determine when benefits will be delivered, and justify why the
project should be continued. If the expected benefits justify continuing the
project, FAA should determine the cash flow requirements needed to complete
implementation of the system, report its results to Congress, and provide future
funding requirements for the F&E account for all major acquisition programs,
including those that have been deferred.


FINDING AND RECOMMENDATIONS

Cost Growth and Schedule Delays of Major Acquisitions Continue To
Stall NAS Modernization Efforts
Major acquisitions represent FAA’s primary efforts to modernize or add new
capabilities to the NAS. Historically, a significant portion of FAA’s investment in
air traffic control modernization projects has gone toward enhancing capacity and
efficiency and replacing aging equipment in the NAS. The total modernization
effort is expected to cost $48.6 billion through 2007, and FAA received a little
more than $2.5 billion for FY 2005.

Of that $2.5 billion, a little more than $1.4 billion, or 57 percent, will be used to
develop and acquire FAA’s air traffic control modernization projects. The
remaining funds support personnel and related expenses, mission support (support
contracts), and FAA facilities (see Figure 2).
                                                                                               11



                     Figure 2. FAA's FY 2005 Facilities and Equipment Budget

                Personnel and Related
                     Expenses,
                    $421,000,000
                        17%                                              Air Traffic Control
     Mission Support,                                                     Modernization,
      $282,595,000                                                        $1,453,896,600
           11%                                                                  57%


              Facilities,
            $382,508,400
                15%

  Source: Analysis of FAA FY 2005 F&E Budget




We analyzed 16 FAA major acquisition programs with respect to cost, schedule,
and key issues affecting their implementation. These projects include developing
new automated controller tools, acquiring new technologies to prevent accidents
on runways and taxiways, and modernizing FAA facilities that manage large
segments of airspace over the Atlantic and Pacific Oceans. The 16 acquisitions we
reviewed represent approximately $1.0 billion, or 71 percent, of the available
funds used for developing and acquiring air traffic control modernization projects.

FAA has made progress in updating the cost, schedule, and performance baselines
of a number of acquisitions, including the STARS, WAAS, and FTI programs. By
updating the acquisition program baselines of these projects, FAA should be better
positioned to anticipate resource requirements and determine when capabilities
may be delivered. However, we found that continued cost growth, schedule
delays, and performance shortfalls with major acquisitions have significantly
delayed FAA’s ability to obtain the benefits of new technologies and other
improvements needed to increase safety, capacity, and efficiency of the NAS.

Our review of the 16 major acquisitions shows 11 of these projects have
experienced cost growth of over $5.6 billion (from $8.9 billion to $14.5 billion),
which is more than double the $2.5 billion amount of FAA’s appropriations for
modernization in FY 2005. Additionally, 9 of the 16 projects have schedule
delays ranging from 2 to 12 years, while 2 other projects (LAAS and NEXCOM)
have been deferred. Not withstanding FAA’s decision to defer NEXCOM, the
Agency still must deal with a number of issues that the program was supposed to
address, including how to fund and sustain its aging radio control equipment and
concerns about radio frequency depletion.

FAA recently sought to be more realistic about the cost of some programs and is
taking a more phased approach to major efforts. There has been cost growth with
major acquisitions since the establishment of the new ATO, but the bulk of the
                                                                                12


cost growth represented by the $5.6 billion occurred before the new organization
was established. It is also a reflection of the ATO’s efforts to re-baseline a
number of projects, which identified costs that have been pent up for some time
and have simply not been recognized.

Since we last reported on these projects in June 2003, the estimated cost of 6 of
the 16 projects has increased by about $1.7 billion, which includes cost growth of
about $1.1 billion for STARS and $400 million for WAAS. Although FAA
updated the cost, schedule, and performance baselines for some of its major
acquisitions, much work remains before the Agency has accurate and complete
information for its major acquisitions.

We identified 9 of the 16 programs that do not have reliable cost, schedule, or
performance baselines. In such instances, the baseline does not reflect the true
cost or schedule to develop and deploy the system as originally planned. This
means that FAA cannot effectively plan resource requirements, manage the
programs, or meet expectations for improving the safety and increasing the
capacity of the NAS.

We found FAA projects had unreliable costs for a number of reasons, including
requirement changes (e.g., STARS, WAAS, FTI, ITWS, and ASR-11). In our
opinion, unreliable project cost and schedule estimates are an outgrowth of
attempting to develop and implement technologies before they are ready. Placing
immature technologies in the acquisition cycle increases the cost of the technology
and extends the completion date.

FAA recognizes the need to obtain reliable information for its major acquisitions.
It plans to update the cost, schedule, and performance baselines of five programs
and revalidate the STARS and WAAS baselines. However, FAA has yet to
determine when it will re-baseline NEXCOM and LAAS, as is reflected in
Table 2.
                                                                                                              13


Table 2. Major Acquisition Programs To Be Re-Baselined
                 Programs*                      Latest Re-Baseline               Planned Re-Baseline

     ASR-11                                            July 2004                           2005
     ASDE-X                                           June 2002                            2005
     ADS-B                                          Never baselined                        2005
     NIMS                                             May 2000                             2005
     STARS                                            April 2004                           2005
     ITWS                                             May 2004                             2007
     WAAS                                             May 2004                             2007
     LAAS                                           September 1999                   To be determined
     NEXCOM                                           May 2000                       To be determined
    * See Exhibit C for a list of program acronyms

These programs continue to be plagued by requirement changes, technical
difficulties, or reduction in performance capabilities. Cost growth and schedule
delays continue with many of FAA’s major acquisition programs, hindering the
Agency’s efforts to develop and deploy new technologies to address the capacity
needs of the NAS. Primary drivers for cost growth and schedule delays include
additional development work, changing requirements, replacement of obsolete
technology, and extension of the service life of the program. These projects
include STARS, WAAS, ITWS, and ASR-11. Consequently, it is not clear how
much these programs will cost, how long it will take to complete them, or what
capabilities will finally be delivered. For example:

    • The Standard Terminal Automation Replacement System program
        replaces controller and maintenance workstations with color displays,
        processors, and computer software. As we recently reported, faced with
        additional costs growth in the STARS program, FAA is rethinking its terminal
        modernization approach—a long overdue step that should have been taken
        several years ago. FAA re-baselined the STARS program in April 2004,
        limiting deployment to 50 planned sites 9 for $1.46 billion, after receiving a
        revised cost estimate of more than $2 billion for all sites. FAA revised its
        terminal modernization plan by committing to (1) consider retaining Common
        ARTS at some sites as an alternative to STARS, and (2) re-evaluate STARS
        costs and deployments before considering further STARS purchases in
        FY 2005.

        FAA intends to re-baseline STARS again in June 2005, and if the Agency
        implements its preferred STARS solution, which is to deploy STARS to
        162 sites as originally planned, the cost would total $2.76 billion, including
        technology refresh. Thus, the program that was originally estimated to cost

9
     FAA committed STARS deployment to 50 sites, but congressional language limited deployment to 47 sites.
                                                                             14


  less than $1 billion could cost almost $3 billion, and deployment to all sites
  may not occur until 2012—a 7-year delay compared to its original planned
  completion date.

  However, the cost to complete terminal modernization still remains uncertain,
  and a decision needs to be made about what technology will be expected to
  complete terminal modernization based on cost, time, and capabilities.
  Because of cost growth and schedule delays, of urgent concern is the state of
  aging displays at four large sites, including Chicago and Denver. Under
  FAA’s current plan, the Agency will not begin installing STARS and
  replacing the aging displays at the large sites until sometime in FY 2008.

  Additionally, more development work is required before STARS can replace
  Common ARTS throughout the NAS. Due to overall program delays, STARS
  components being purchased today are now facing obsolescence, even though
  they were modern in 1996. For example, recently purchased STARS
  computers contain refurbished (i.e., used) computer processors. To address
  this, FAA plans to begin modernizing STARS through a technology refresh
  program beginning in FY 2006, which is estimated to cost $596.6 million over
  the life of the program through the year 2031. Currently, FAA is negotiating
  with the STARS contractor for development of a replacement processor.
  However, FAA currently has little choice but to purchase refurbished
  processors while waiting for development of the new processor and software
  modifications to be completed.

• The Wide Area Augmentation System program provides the augmentation
  needed to make the GPS satellite fully usable for en route, terminal, and non-
  precision approaches. FAA re-baselined WAAS in May 2004, and program
  costs increased from $2.9 billion to $3.3 billion. FAA now intends to provide
  a capability called “LPV” in late 2008, which will provide less than
  Category 1 performance. Key risks to WAAS implementation include delays
  in the development of flight procedures and user equipage.

  We note that WAAS will primarily benefit general aviation users, because
  commercial airliners already have on-board capabilities similar to WAAS.
  Additionally, it is still an open question whether the Agency will reduce its
  operating costs with WAAS implementation because FAA has yet to
  determine which surface navigation aids will be replaced in favor of WAAS.

  FAA still intends to pursue Category 1 capability and plans to make a formal
  decision in 2007. However, to provide Category 1, FAA is now dependent on
  DOD enhancement to the GPS satellite (a second civil signal for aviation use).
  Given shifting benefits and uncertainty regarding DOD plans, we question
  whether FAA should commit funds for Category 1 development. A decision
                                                                             15


  not to pursue Category 1 would significantly reduce the WAAS program’s
  $3.3 billion cost.

  FAA is adding new software to work on resolving safety-critical technical and
  performance issues. FAA also issued a contract to Lockheed Martin to
  procure and place into orbit a new geostationary earth-orbit satellite to
  improve WAAS availability.

  Prolonged schedule delays required FAA to request additional funds to
  support technology refresh efforts sooner than anticipated. For example,
  WAAS reference station equipment manufactured in the late 1990s is quickly
  becoming obsolete. FAA currently has a technology refresh effort underway
  to replace all old WAAS equipment with newer, more powerful equipment.
  FAA has been requesting and using funds as early as FY 2004 to purchase
  updated hardware and software to replace the equipment from the WAAS
  initial design and development cycle in 1996. This effort will be complete by
  2007. According to the May 2004 revised baseline for WAAS, FAA will be
  requesting an additional $340 million, beginning in 2014, to support WAAS
  technical refresh efforts over the extended life of the program.

• The FAA Telecommunication Infrastructure program is key to FAA’s
  efforts to transition from supporting multiple telecommunication networks to a
  single network, thereby reducing operating costs. FAA re-baselined FTI in
  December 2004. We note that program costs have increased from $1.9 billion
  to $2.4 billion, the bulk of which ($2.1 billion) will be funded from the
  Operations account.

  Even though FAA re-baselined the effort, there are a number of issues that
  could affect its cost and schedule. For example, FAA has dramatically
  increased the number of sites scheduled to receive FTI from 1,374 to 4,463,
  and some sites are experiencing delays implementing FTI. FAA was planning
  to transition approximately 450 circuits to FTI operations by the end of
  November 2004; however, the Agency was only successful transitioning about
  200 circuits—completing less than 50 percent of its planned milestones. A
  delay to the FTI implementation schedule would translate directly into
  increases in operations costs and reduced costs savings due to the prolonged
  sustainment of legacy networks. We note that FAA has already reduced FTI
  cost savings by $30 million ($820 million to $790 million), due to delays
  implementing FTI.

• The Airport Surveillance Radar-11 program replaces aging analog radars at
  small terminal facilities with digital radars. FAA re-baselined the ASR-11
  program in July 2004. FAA updated the requirements and increased costs
  $87 million to include, among other things, digitizers at all sites where
                                                                                 16


    STARS will precede the ASR-11 program, and to satisfy deployment
    requirements of approximately 89 of the 112 radars originally planned. The
    cost increase is attributable to updated program requirements and adjustments
    to account for prior year funding deferrals.

    It remains unclear how much it will cost or how long it will take to deploy all
    112 radars as originally planned. FAA plans to re-baseline ASR-11 again in
    June 2005 to request additional funding to support deployment of all
    112 radars.

 • The Integrated Terminal Weather System provides air traffic managers
    with a forecast of weather conditions near airports. FAA re-baselined the
    ITWS program in May 2004. At that time, the Joint Resources Council
    approved the addition of the Terminal Weather Forecast product, which
    provides more advance notification of when and where bad weather will
    occur, in the ITWS production baseline. However, because production costs
    have increased from $360,000 to $1.1 million per system, only 22 of the
    planned 34 production systems will be deployed through 2009—6 years
    behind schedule. FAA plans to re-baseline ITWS in 2007, at which time a
    deployment decision will be made regarding the remaining 12 systems.

It is important for FAA to complete its plans to re-baseline the programs within its
major acquisition portfolio and to ensure the accuracy and reliability of the
programs’ baselines. When baselines are not met, the Agency cannot accurately
anticipate either resource requirements or capabilities in the future. Additionally,
postponed benefits from un-fielded systems also create inefficiency in the NAS.

FAA is now in the unenviable position of funding projects that have been delayed
for years while starting the ambitious $2.1 billion ERAM program. ERAM is one
of the largest and most complex acquisitions in FAA’s modernization portfolio. In
essence, ERAM replaces the brain and central nervous system for facilities that
manage high-altitude traffic. By 2007, FAA will be spending $30 million per
month alone on the program. FAA is pursuing ERAM through a long-term cost-
plus contract that places the majority of risk with the Government.

Progress is being made with the first ERAM deliverable: a back-up system for the
Host computer. However, the bulk of the work focuses on development of the
first major ERAM software release, which involves developing over 1 million
lines of code. We note that the first software release for ERAM has experienced
some modest software code growth of 70,000 lines. FAA can take steps now to
reduce risk of ERAM by relying more on fixed-price agreements and deferring
later software builds that have yet to be defined or priced.
                                                                                           17


FAA annual funding requirements for the STARS, WAAS, ASR-11, and ERAM
programs will increase from 26.9 percent to 53.6 percent over a 4-year period
beginning in FY 2004. Consequently, a significant portion of the available funds
used to support air traffic acquisitions through 2007 will be used to fund just these
four projects. Moreover, in June 2005, FAA is planning to make a decision on
whether to acquire additional STARS and ASR-11 systems. A decision to acquire
additional systems may require significant funding increases for the two programs,
which will further reduce the funds available to support air traffic acquisitions.
This leaves little room for cost growth, schedule delays, or adding new initiatives.


FAA Needs To Develop a Comprehensive Strategy for Modernizing
the NAS To Ensure Major Acquisition Programs Are Delivered Within
Cost, Schedule, and Performance Milestones
As the demand for air travel continues to rise, FAA is now emphasizing sustaining
the NAS, as opposed to increasing capacity in the NAS. According to FAA
officials, the Agency is planning to spend just over $230 million on capacity
enhancement projects in 2005, which represents about 16 percent of the total funds
used to support air traffic control modernization projects (see Figure 3).


           Figure 3. Breakdown of Air Traffic Control Modernization
                        Funding by Investment Area

 Enhancements
 $236,030,000 (16%)                                          Modernization (Sustainment)
                                                             $1,217,866,600 (84%)




 Source: Analysis of FAA's FY 2005 F&E Budget




Of the $1.4 billion funded in FY 2005 to acquire and develop air traffic
modernization projects, FAA plans to spend $236 million, or 16 percent, on three
programs the Agency concluded will provide capacity to the NAS. The three
programs are Free Flight Phase 2 ($88 million), ASDE-X ($48 million), and
WAAS ($100 million). The remaining $1.2 billion will be used to support
sustainment and modernization activities such as the ERAM and STARS
programs.

FAA officials indicated budget reductions have forced the Agency to rethink its
modernization strategy and reduce or eliminate funding for several acquisition
                                                                                 18


programs (including NEXCOM and LAAS) through 2008. However, we
concluded that cost growth of over $5.6 billion and schedule delays ranging from
2 to 12 years with major acquisition projects has also significantly affected FAA’s
efforts to modernize the NAS.

In an era when F&E funding levels are down, trade-offs must be made. So the
crucial question is how FAA can address both capacity and affordability. As FAA
updates its major acquisition program baselines, it needs to revalidate the program
benefits as well. FAA needs to determine whether the planned capacity gains for
its acquisition programs still exist, when increased capacity will be delivered, and
whether it is cost beneficial to continue investing in the programs.

Given the cost growth and schedule slips with major acquisitions and the declining
level of F&E funds, FAA must determine how to get the most out of its limited
resources. The challenges facing FAA with respect to its major acquisition
programs are developing reliable cost, schedule, and performance baselines for its
existing projects and determining the total cost to complete implementation of the
projects. FAA also needs to specify what capabilities and benefits each project
provides the NAS, when the benefits will be delivered, and why the project should
be continued. Until the new baselines are established and FAA revalidates
program benefits, FAA will not be in position to manage its overall modernization
portfolio or set expectations for what can be accomplished within existing and
projected funding levels.


RECOMMENDATIONS
In light of our finding, we are recommending that FAA develop a comprehensive
strategy for modernizing the NAS to ensure major acquisitions are delivered
within cost, schedule, and performance milestones. As FAA updates its major
acquisition program baselines, the Agency needs to:

   1. Re-validate the capabilities and benefits that each project (i.e., STARS,
      WAAS, ASR-11, NIMS, ASDE-X, ADS-B, and ITWS) is expected to
      provide the NAS and determine when the benefits will be delivered. If the
      expected benefits justify continuing the project, determine the cash flow
      requirements needed to complete implementation of the system, and

   2. Report to Congress on the results of this re-validation effort and provide
      future funding requirements for the F&E account for all major acquisition
      programs, including those that have been deferred.
                                                                                19


AGENCY COMMENTS
On May 17, 2005, we met with FAA program officials from the ATO—Finance,
En Route and Oceanic Service, Terminal, and Communications offices—to obtain
their oral comments to our report. Based on FAA comments, we made changes to
the report as appropriate. FAA officials generally agreed with our conclusions and
recommendations.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments on this report within 30 calendar days.
If you concur with the finding and recommendations, please indicate the specific
action taken or planned for the recommendations and the target date for
completion. If you do not concur, please provide your rationale. You may
provide alternative courses of action that you believe would resolve the issues
presented in this report.

We appreciate the courtesies and cooperation of representatives from the FAA,
and in particular its Air Traffic Organization-Finance staff, during this audit. If
you have any questions concerning this report, please call me at (202) 366-0500 or
Kevin Dorsey, Program Director, at (202) 366-1518.


                                        #

cc:   FAA Deputy Administrator
      FAA Chief of Staff
      Anthony Williams, ABU-100
      Martin Gertel, M-1
EXHIBIT A. SCOPE, METHODOLOGY, AND PRIOR AUDIT
COVERAGE
We performed our review of FAA’s major acquisitions from September
2004 through March 2005. Specific programs were selected for review based on
their having F&E cost estimates of $150 million or more and schedule completion
dates in FY 2005 or later. We focused primarily on project funding from the F&E
account because those funds are used to support FAA’s air traffic modernization
efforts. This review was performed in accordance with Government Auditing
Standards as prescribed by the Comptroller General of the United States.

We initially selected 17 major acquisitions for review. However, during our
survey, we determined that the Airport Movement Area Safety System program
was completed and that no further review was required. To update the costs and
schedules of the remaining 16 major acquisitions selected for review, we obtained,
analyzed, and documented cost and schedule information of acquisition program
baseline documents and monthly variance reports. We updated the status of the
programs from inception to March 2005. We spoke with key personnel
responsible for developing and implementing these programs and evaluated
monthly program status reports, team meeting minutes, and Joint Resources
Council (a key Agency decision-making body) decisions. In addition, we obtained
and analyzed acquisition program expenditures and obligations from FAA
program offices.

We identified the main issues affecting implementation of acquisition programs
through discussions with FAA acquisition program staff, our review of program
documentation obtained from FAA, and our review of the Capital Investment
Plan, FAA Flight Plan 2004-2008, the Operational Evolution Plan, and other
relevant FAA documents. Upon completion of the updated matrixes, we
forwarded the information to FAA for review and incorporated its comments
where necessary.

We have issued two prior audit reports on the status of FAA’s major acquisition
programs. In our most recent report, 10 we recommended that FAA update its
major acquisition baselines and develop and use performance goals to assess
progress with its major acquisitions. We met with the Director of FAA’s Capital
Expenditures Programs to obtain information on the status of the
recommendations and FAA’s F&E budget process. FAA has updated several
major acquisition baselines and is making progress developing and implementing
performance goals for assessing the progress of major acquisitions.

10
     OIG Report Number AV-2003-045, “Status of FAA’s Major Acquisitions,” June 26, 2003.


Exhibit A. Scope, Methodology, and Prior Audit Coverage
                                                                             21


FAA established a performance goal to assess the progress of its critical major
acquisitions. Beginning in FY 2005, FAA plans to complete 80 percent of its
acquisitions on schedule and within 10 percent of budget. By FY 2009, FAA
plans to increase its target completion rate to 90 percent. However, we found
FAA’s success criteria for meeting its goals are much different than how we
measure the cost and schedule variances for FAA’s major acquisitions. Our costs
and schedule variances are based on a comparison of FAA’s approved baselines at
the program’s inception compared to the current program baselines. FAA is using
updated program cost and schedule milestones to measure its performance goals
and is making no comparison to the original program milestones.

Additionally, FAA’s Flight Plan established Agency performance goals, is tied
directly to Agency funding decisions, and will be updated annually. Under the
plan, employee incentive payout requires that employees meet at least 90 percent
of the Flight Plan goals. However, much work remains before FAA can truly
assess how major acquisitions funds are spent.

FAA is attempting to develop a budget process for major acquisitions consistent
with Agency goals and plans to begin this process in FY 2007. FAA is planning
to implement a better process for linking its budget to meeting Agency goals of
increasing safety, providing greater capacity, international leadership, and
organizational excellence. The Agency plans to use its Flight Plan to drive the
budget. Programs will be prioritized based on recommendations of an Executive
Council, which the Agency plans to form. FAA will also attempt to factor the
operations costs of major acquisition programs into its decision-making process.




Exhibit A. Scope, Methodology, and Prior Audit Coverage
                                                                                                22




EXHIBIT B. COST AND SCHEDULE VARIANCES FOR EXISTING
PROGRAMS
 Program*       Estimated Program Costs           Percent        Implementation Schedule      Schedule
                      (in Millions)                Cost                                        Delay
                 Original       Current           Growth          Original         Current
 WAAS                $892.4        $3,339.6         274%         1998-2001        2005-2013   12 years
 STARS               $940.2        $2,760.4         194%         1998-2005        2002-2012    7 years
 NEXCOM              $406.0          $986.4         143%         2002-2008        2002-TBD    Deferred
 FTI                 $205.5          $310.2          51%         2002-2008        2004-2008    2 years
 OASIS               $174.7          $251.0          44%         1998-2001        2002-2005    4 years
 ADS-B               $215.1          $294.8          37%         2001-TBD         2001-TBD      N/A
 ASR-11              $743.3        $1,003.0          35%         2000-2005        2003-2013    8 years
 NIMS                $273.7          $362.3          32%         1997-2000        2001-2010   10 years
 LAAS                $530.1          $696.1          31%         2002-TBD            TBD      Deferred
 ASDE-X              $424.3          $505.2          19%         2003-2007        2003-2009    2 years
 ITWS                $276.1          $286.1          4%          2002-2003        2003-2009    6 years
 ATCBI-6             $281.8          $282.3          N/A         2000-2004        2002-2009    5 years
 FFP 2               $546.2          $495.8          N/A         2003-2007        2003-2007     N/A
 ERAM              $2,154.6        $2,141.9          N/A         2009-2010        2009-2010     N/A
 ECG                 $315.1          $315.1          N/A         2003-2005        2004-2005     N/A
 ATOP                $548.2         $ 548.2          N/A         2004-2006        2004-2006      N/A
                                                                                               2 to 12
  Total            $8,927.3      $14,578.4                                                      years
*See Exhibit C for a list of program acronyms
Source: Project-specific acquisition program baselines or FAA’s Capital Investment Plan
N/A: Not applicable
TBD: To be determined




Exhibit B. Cost and Schedule Variances for Existing Programs
                                                                                                   23




EXHIBIT C. DEFINITIONS OF PROGRAM ACRONYMS
   Program                                         Definition
             Wide Area Augmentation System: Provides the augmentation needed to make the
WAAS         GPS satellite signal fully usable for en route, terminal, and non-precision
             approaches.
             Standard Terminal Automation Replacement System: Replaces controller and
STARS        maintenance workstations with color displays, processors, and computer software at
             terminal air traffic control facilities.
             Next Generation Air/Ground Communications: Replaces existing analog radios and
NEXCOM       related equipment with digital systems and is expected to meet the radio frequency
             needs of the NAS.
             FAA Telecommunications Infrastructure: Replaces older telecommunications
FTI          systems with one provider responsible for operating and maintaining FAA’s
             telecommunications infrastructure.
             Operational and Supportability Implementation System: Replaces the current Model
             One Full Capacity system at the 61 Automated Flight Service Stations and will
OASIS        provide an integrated system that will increase operational capabilities such as Flight
             Data Processing and Weather Graphics.
             Automatic       Dependent      Surveillance—Broadcast:        An      air-to-air-to-ground
ADS-B        communications, navigation, and surveillance technology that relies on GPS to
             broadcast the positions of properly equipped aircraft and surface vehicles.
             NAS Infrastructure Management System: Provides a centralized management
NIMS         system to improve the remote maintenance monitoring system capability and other
             airway facilities services provided to the NAS.
             Airport Surveillance Radar-11: Replaces aging analog radar with digital radar at
ASR-11       small terminal facilities.
             Local Area Augmentation System: Provides the augmentation needed to make GPS
LAAS         fully usable for Category 1, 2, and 3 precision approaches and landings.
             Airport Surface Detection Equipment-X: Provides surveillance equipment to
ASDE-X       prevent runway incursions at airports.
             Integrated Terminal Weather System: Acquires and integrates weather data from
ITWS         multiple sensors and provides traffic management units with a graphic display of
             weather information that needs no meteorological interpretation.
             Air Traffic Control Beacon Interrogator-6: A ground-based system that interrogates
             transponders, receives and processes replies from transponders, determines the range
ATCBI-6      and direction to/from aircraft, and forwards the information to appropriate air traffic
             control automation systems.
             Free Flight Phase 2: Includes a set of automated tools (User Request Evaluation
             Tool and Traffic Management Advisor) that helps controllers detect potential
FFP 2        conflicts between aircraft and transition aircraft from en route to terminal airspace.
             Collaborative Decision Making is also used to improve air traffic management
             through links with the Command Center and Airline Operations Centers.
             En Route Automation Modernization: Replaces the Host computer hardware and
ERAM         software, including the Host back-up system and associated support infrastructure, at
             20 air route traffic control centers.
             En Route Communications Gateway: Replaces the existing communications
ECG          gateway at 20 en route facilities that control high-altitude air traffic.
             Advanced Technologies and Oceanic Procedures: Modernizes FAA facilities that
ATOP         are responsible for managing large segments of airspace over the Atlantic and
             Pacific Oceans.




Exhibit C. Definitions of Program Acronyms
                                                                                                                                               24


EXHIBIT D. STATUS OF FAA’S MAJOR ACQUISITIONS (AS OF MARCH 2005)
Program Name, Description,       Original         Current            Original       Current           Status and Key Issues Affecting
 Purpose, and Contractor       Program Cost     Program Cost        Deployment     Deployment                 Implementation
          Name                   Estimate         Estimate           Schedule       Schedule
Advanced Technologies and $548.2 Million        $548.2 Million     Start: 2004    Start: 2004    Almost 4 years ago in June 2001, FAA
Oceanic Procedures                                                 Finish: 2006   Finish: 2006   awarded a $217 million fixed-price contract
(ATOP):                                         (Total obligated                                 to Lockheed Martin to provide oceanic
Modernizes FAA facilities that                  as of                                            systems in Anchorage, New York, and
are responsible for managing                    January 2005:                                    Oakland.
large segments of airspace                      $305.6 million)
over the Atlantic and Pacific                                                                    Although FAA began initial operations for
Oceans. FAA plans call for an                                                                    ATOP at Oakland in June 2004, FAA
integrated system for flight                                                                     continues to experience problems with the
data processing, detecting                                                                       system and is only using ATOP on a limited
conflicts between aircraft, data                                                                 basis in Oakland. Last year, FAA increased
link, and surveillance                                                                           the ATOP contract by $11 million to fix
capabilities.                                                                                    software problems and maintain its schedule
                                                                                                 and has recently modified the contract and
Contractor:                                                                                      provided an additional $21 million to
Lockheed Martin                                                                                  address similar problems.

Airport Surface Detection      $424.3 Million   $505.2 Million     Start: 2003    Start: 2003    ASDE-X is an important safety initiative to
Equipment-X (ASDE-X):                                              Finish: 2007   Finish: 2009   reduce accidents on runways.        It was
ASDE-X provides surveillance                    (Total obligated                                 initially designed to provide a low-cost
equipment to prevent runway                     as of                                            alternative to FAA’s ASDE-3 radar
incursions at airports.                         January 2005:                                    systems. The program has evolved and now
Implementation of these                         $249 million).                                   includes 28 ASDE-X sites and 7 ASDE-3
systems will improve                                                                             sites that will receive ASDE-X upgrades.
controller situational
awareness of the airport                                                                         We note that nearly half of the 35 sites
movement area.                                                                                   planned will have schedule slips, due to
                                                                                                 changes in system design and additional
Contractor: Sensis Corp.                                                                         requirements.

                                                                                                 FAA plans to re-baseline the ASDE-X
                                                                                                 program in June 2005.

Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                                                                                                            25
Program Name, Description,     Original       Current            Original       Current           Status and Key Issues Affecting
 Purpose, and Contractor     Program Cost   Program Cost        Deployment     Deployment                 Implementation
          Name                 Estimate       Estimate           Schedule       Schedule
Airport Surveillance Radar $743.3 Million   $1.0 Billion       Start: 2000    Start: 2003    FAA re-baselined the ASR-11 program in
(ASR-11):                                                      Finish: 2005   Finish: 2013   July 2004. Program cost increased by $87
Replaces aging analog radar                 (Total obligated                                 million    from     $916.2    million     to
with digital radar at small                 as of                                            approximately $1 billion to deploy
terminal facilities. ASR-11                 January 2005:                                    approximately 89 radars. It remains unclear
can be used by Common                       $537.2 million)                                  how much it will cost or how long it will
ARTS and STARS. This is a                                                                    take to deploy all 112 radars, as originally
joint effort with the                                                                        planned.
Department of Defense.
                                                                                             FAA plans to re-baseline ASR-11 again in
Contractor: Raytheon                                                                         June 2005.




Air Traffic Control Beacon $281.8 Million   $282.3 Million     Start: 2000    Start: 2002    The ATCBI-6 is replacing aging en route
Interrogator (ATCBI-6):                                        Finish: 2004   Finish: 2009   surveillance radar equipment (ATCBI
A ground-based system that                  (Total obligated                                 Models 4 and 5) to maintain operational
interrogates transponders,                  as of                                            capability and decrease maintenance costs.
receives and processes replies              January 2005:                                    Only 33 of 126 operational sites have been
from transponders, determines               $187.8 million)                                  commissioned. Funding shortfalls could
the range and direction to/from                                                              cause additional delays in the program.
aircraft, and forwards the
information to appropriate air
traffic control automation
systems. Replies from aircraft
provide transponder
identification and altitude data,
which are displayed on the
controller’s screen.

Contractor: Raytheon



Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                                                                                                                       26
Program Name, Description,          Original         Current            Original           Current           Status and Key Issues Affecting
 Purpose, and Contractor          Program Cost     Program Cost        Deployment         Deployment                 Implementation
          Name                      Estimate         Estimate           Schedule           Schedule
Automatic Dependent               $215.1 Million   $294.8 Million     Start: 2001       Start: 2001     FAA is currently developing and testing,
Surveillance-Broadcast            (Part of Safe                       (Limited          Finish: To be   ADS-B avionics/technologies in Alaska and
(ADS-B):                          Flight 21)       (Total obligated   deployment to     determined      the Ohio River Valley. We note that
ADS-B is an air-to-air, air-to-                    as of              Bethel, Alaska)                   increased cost of the effort from
ground communications,                             January 2005:                                        $268.4 million to $294.8 million is
navigation, and surveillance                       $181.8 million)    Finish: To be                     attributable to, among other things, the
technology that relies on GPS                                         determined                        statewide expansion of the ground
to broadcast the positions of                                                                           infrastructure in Alaska and the integration
properly equipped aircraft and                                                                          of ADS-B with surface moving map
surface vehicles. It is part of                                                                         displays. ADS-B is a key element in other
the Safe Flight 21 Program.                                             Airspace users must equip       FAA programs, including the ASDE-X
                                                                        to obtain benefits.             effort to help prevent accidents on runways.
Contractors:
Chelton Flight Systems,                                                                                 FAA plans to baseline the ADS-B
Garmin AT, Inc.,                                                                                        program for NAS-wide deployment in
Sensis Corp,                                                                                            the lower 48 states by the end of
Helipro Corp International                                                                              FY 2005.

En Route Automation               $2.1 Billion     $2.1 Billion       Start: 2009       Start: 2009     With an estimated cost of $2.1 billion,
Modernization (ERAM):                                                 Finish: 2010      Finish: 2010    ERAM is one of the largest and most
Replaces the Host computer                         (Total obligated                                     complex       acquisitions    in     FAA’s
hardware and software,                             as of                                                modernization portfolio. Progress is being
including the Host back-up                         January 2005:                                        made with the first ERAM deliverable—a
system and associated support                      $332 million)                                        back-up system for the Host computer.
infrastructure, at 20 en route                                                                          However, the bulk of the work focuses on
centers.                                                                                                development of the first major ERAM
                                                                                                        software release, which involves developing
Contractor:                                                                                             over 1 million lines of code.
Lockheed Martin and
Raytheon                                                                                                We note that the first software release for
                                                                                                        ERAM has experienced some modest
                                                                                                        software code growth of 70,000 lines. FAA
                                                                                                        can take steps now to reduce risk to ERAM
                                                                                                        by relying more on fixed-price agreements
                                                                                                        and deferring later software releases that
                                                                                                        have yet to be defined or priced.
Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                                                                                                                 27
Program Name, Description,        Original         Current            Original       Current           Status and Key Issues Affecting
 Purpose, and Contractor        Program Cost     Program Cost        Deployment     Deployment                 Implementation
          Name                    Estimate         Estimate           Schedule       Schedule
En Route Communications $315.1 Million           $315.1 Million     Start: 2003    Start: 2004    ECG is one of the first initiatives aimed at
Gateway (ECG):                                                      Finish: 2005   Finish: 2005   modernizing en route automation. The
ECG will replace the existing                    (Total obligated                                 program is on schedule and under budget.
communications gateway at                        as of                                            FAA has delivered 24 systems overall and
20 en route facilities that                      January 2005:                                    15 systems are operational (including
control high-altitude air traffic.               $196 million)                                    support facilities).
The program will provide a
more robust infrastructure to
support future en route
systems, such as the En Route
Automation Modernization
program.

Contractor:
Lockheed Martin
FAA Telecommunications          $205.5 Million   $310.2 Million     Start: 2002    Start: 2004    FTI is key to FAA’s efforts to
Infrastructure (FTI):                                               Finish: 2008   Finish: 2008   transition from multiple telecommunication
FTI is designed to replace                       (Total obligated                                 networks to a single network, thereby
older telecommunications                         as of                                            reducing operating costs. FAA re-baselined
systems with one provider                        January 2005:                                    FTI in December 2004. We note that
responsible for operating and                    $146.1 million)                                  program cost have increased from
maintaining FAA                                                                                   $1.9 billion to $2.4 billion, the bulk of
telecommunications                                                                                which ($2.1 billion) will be funded from the
infrastructure.                                                                                   Operations account.

Contractor:                                                                                       Even though FAA re-baselined FTI, there
Harris Corporation                                                                                are a number of issues that could impact
                                                                                                  cost and schedule. For example, FAA has
                                                                                                  dramatically increased the number of sites
                                                                                                  scheduled to receive FTI from 1,374 to
                                                                                                  4,463, and some sites are experiencing
                                                                                                  delays implementing FTI. A delay to FTI’s
                                                                                                  implementation schedule would increase
                                                                                                  operations costs and reduce costs savings
                                                                                                  due to the prolonged sustainment of legacy
                                                                                                  networks.

Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                                                                                                                   28
Program Name, Description,          Original         Current            Original       Current           Status and Key Issues Affecting
 Purpose, and Contractor          Program Cost     Program Cost        Deployment     Deployment                 Implementation
          Name                      Estimate         Estimate           Schedule       Schedule
Free Flight Phase 2 (FFP 2):      $546.2 Million   $495.8 Million     Start: 2003    Start: 2003    FFP 2 is a geographical expansion of the
FFP 2 includes the User                            Total Costs        Finish: 2007   Finish: 2007   successful FFP 1 program.       FAA has
Request Evaluation Tool                                                                             dissolved the Free Flight office, and the
(URET), Traffic Management                         (Total obligated                                 programs have been reassigned to various
Advisor (TMA) Single Center,                       as of                                            offices within the new FAA Air Traffic
and Collaborative Decision                         January 2005:                                    Organization.
Making (CDM). It introduces                        $272.4 million)
Controller Pilot Data Link                                                                          Due to funding considerations, FAA has
Communications (CPDLC).                                                                             deferred plans for implementing URET at
                                                                                                    the last two sites until 2006. FAA is
Contractor:                                                                                         refocusing efforts to use TMA as a multi-
Lockheed Martin; (URET)                                                                             center tool to sequence and transition
Computer Sciences                                                                                   aircraft through multiple centers and
Corporation CSC (TMA-SC)                                                                            enhance benefits.       TMA relies on a
METRON, Volpe and CSC                                                                               procedural change referred to as Time
(CDM)                                                                                               Based Metering to obtain maximum
                                                                                                    benefits. Currently, only six Air Route
                                                                                                    Traffic Control Centers use the technique on
                                                                                                    a regular basis. We note that FAA canceled
                                                                                                    the CPDLC program and plans to complete
                                                                                                    closeout activities by April 2005.
Integrated Terminal               $276.1 Million   $286.1 Million     Start: 2002    Start: 2003    FAA re-baselined the ITWS program in
Weather System (ITWS):                                                Finish: 2003   Finish: 2009   May 2004.         At that time, the Joint
Acquires and integrates                            (Total obligated                                 Resources Council approved the addition of
weather data from multiple                         as of                                            the Terminal Weather Forecast product in
sensors and provides traffic                       January 2005:                                    the ITWS production baseline. However,
management units with a                            $207.3 million)                                  because production costs have increased
graphic display of weather                                                                          from $360,000 to $1.1 million per system,
information that needs no                                                                           only 22 of the planned 34 systems will be
meteorological interpretation.                                                                      deployed through 2009.
Includes (1) a display of
terminal winds aloft, and (2) a                                                                     FAA plans to re-baseline ITWS in 2007, at
20-minute prediction of                                                                             which time a deployment decision will be
convective weather.                                                                                 made regarding the remaining 12 systems.
Contractor: Raytheon

Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                                                                                                                          29
Program Name, Description,          Original         Current            Original            Current            Status and Key Issues Affecting
 Purpose, and Contractor          Program Cost     Program Cost        Deployment          Deployment                  Implementation
          Name                      Estimate         Estimate           Schedule            Schedule
Local Area Augmentation           $530.1 Million   $696.1 Million     Start: 2002        Start: To be     FAA has deferred LAAS. Some reasons
System (LAAS):                                     (cost are under    Finish: To be      determined       include additional development work,
LAAS is a new precision                            review)            determined         Finish: To be    evolving requirements, and unresolved
approach and landing system                                                              determined       issues regarding system certification.
that is expected to boost                          (Total obligated
airport arrival rates under all                    as of                                                  We note that Congress provided $10 million
weather conditions. It                             January 2005:           Airspace users must            for FY 2005 to provide early LAAS
provides the augmentation                          $162.6 million)         equip to obtain benefits.      Category 1 capability.          The more
needed at 160 airports to make                                                                            demanding Category 2/3 service is now a
GPS fully usable for                                                                                      research and development effort.
Categories 1, 2, and 3
precision approaches at                                                                                   FAA has yet to determine when LAAS will
selected airports.                                                                                        be re-baselined or when it will be delivered.

Contractor: Honeywell

NAS Infrastructure                $273.7 Million   $362.3 Million     Start: 1997        Start: 2001      FAA believes NIMS is an important effort
Management System                                                     Finish: 2000       Finish: 2010     to help the Agency maintain and support
(NIMS):                                            (Total obligated                                       many elements of the NAS, such as radars.
Provides a centralized                             as of                                 (under review)   Cost increases are attributable to increased
management system to                               January 2005:                                          requirements added in 2000. We note that
improve the services provided                      $119 million)                                          FAA has reprogrammed NIMS funds to
to the NAS, as well as to                                                                                 other projects.
operate and maintain the
facilities, systems, and                                                                                  FAA intends to re-baseline the NIMS
equipment that make up the                                                                                (principally Phase 2) cost and schedule in
NAS infrastructure, such as                                                                               2005.
communications equipment,
radars, and navigation aids.

Contractor: Digicom




Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                                                                                                                           30
Program Name, Description, Original                 Current            Original         Current         Status and Key Issues Affecting
Purpose, and   Contractor Program Cost              Program Cost       Deployment       Deployment      Implementation
Name                       Estimate                 Estimate           Schedule         Schedule

Next Generation Air/Ground          $406 Million    $986.4 Million     Start: 2002      Start: 2002     In March 2004, FAA deferred major elements
Communications                                                         Finish: 2008     Finish: 2010    of NEXCOM. FAA will spend $230 million
(NEXCOM):                                           (Total obligated   (key site)       (radios only)   less than planned on NEXCOM through 2008.
Replaces existing analog                            as of                                               NEXCOM is now essentially a radio
radios and related equipment                        January 2005:                                       replacement program—the Agency continues
with digital systems, including                     $165.5 million)                                     to procure the new multi-mode digital radios.
multi-mode digital radios. It is                                                                        Not withstanding FAA’s decision to defer
expected to meet the radio                                                                              NEXCOM, it still must address a number of
frequency needs of the NAS                                                                              issues including how to fund and sustain its
well past 2030. Later phases                                                                            aging radio control equipment and how to
of NEXCOM are expected to                                                Users must equip with new      address concerns about frequency depletion.
allow the exchange of both                                               radios.                        Because of these concerns, FAA was directed
voice and data communication                                                                            to report to Congress how it intends to meet the
on the same channel within the                                                                          near- and long-term communications needs of
existing frequency spectrum.                                                                            the NAS.

Contractor: ITT                                                                                         FAA has yet to determine when NEXCOM
                                                                                                        will be re-baselined.

Operational and                    $174.7 Million   $251 Million       Start: 1998      Start: 2002     On February 1, 2005, FAA contracted out
Supportability                                                         Finish: 2001     Finish: 2005    management of FAA’s Automated Flight
Implementation System                               (Total obligated                                    Service Station services to Lockheed Martin.
(OASIS):                                            as of                                               Lockheed plans to assume operations in
Replaces the current Model                          January 2005:                                       October 2005. Consolidation of 58 sites
One Full Capacity (M1FC)                            $130.2 million)                                     located in the continental United States, Puerto
system at the 61 Automated                                                                              Rico, and Hawaii will begin in April 2006. No
Flight Service Stations and                                                                             further installations are planned beyond the
will provide an integrated                                                                              19 OASIS sites. FAA plans to phase out
system that will increase                                                                               OASIS between March 2006 and March 2007
operational capabilities such as                                                                        in accordance with the Lockheed Martin
Flight Data Processing and                                                                              transition plan.
Weather Graphics.

Contractor: Harris Corp.



Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                                                                                                                            31
Program Name, Description,        Original         Current            Original          Current          Status and Key Issues Affecting
Purpose, and Contractor           Program Cost     Program Cost       Deployment        Deployment       Implementation
Name                              Estimate         Estimate           Schedule          Schedule
Standard Terminal                 $940.2 Million   $1.46 Billion*     Start: 1998       Start: 2002      STARS has a long history of cost increases and
Automation Replacement                                                Finish: 2005      Finish: 2007*    schedule slips. As we recently reported, FAA
System (STARS):                                    *This cost is to                                      re-baselined the STARS program in April
Replaces controller and                            complete only                        *This is the     2004, limiting deployment to 50 planned sites,
maintenance workstations with                      Phase 1 of                           completion       after receiving a revised cost estimate of more
color displays, processors, and                    STARS. To                            year to deploy   than $2 billion for all sites.
computer software at terminal                      complete the                         the first 50
air traffic control facilities.                    program through                      sites, while     Because of cost growth and schedule delays, of
STARS require digital radar                        Phase 3, the                         2012 is FAA’s    urgent concern is the state of aging displays at
data input.                                        total costs is                       estimate to      four large sites, such as Chicago and Denver.
                                                   $2.76 billion                        complete         Under FAA’s current plan, the Agency will not
Contractor: Raytheon                                                                    deployment to    begin installing STARS and replacing the
                                                   (Total obligated                     all 162 sites.   aging displays at the large sites until sometime
                                                   as of                                                 in FY 2008.
                                                   January 2005:
                                                   $1.16 billion)                                        FAA intends to re-baseline STARS again in
                                                                                                         June 2005. The cost to complete terminal
                                                                                                         modernization remains uncertain.
Wide Area Augmentation $892.4 Million              $3.3 Billion       Start: 1998       Start: 2005      FAA re-baselined WAAS in May 2004, and
System (WAAS):                                     (includes sunk     Finish: 2001      Finish: 2013     program costs increased from $2.9 billion to
Provides the augmentation                          costs)                               (depending on    $3.3 billion. FAA now intends to provide a
needed to make the Global                                                               GPS upgrade)     capability called “LPV” in late 2008 which is
Positioning System (GPS)                           (Total obligated                                      less than Category 1 performance. Key risks to
fully usable for en route,                         as of                                                 WAAS implementation are the development of
terminal, and non-precision                        January 2005:                                         flight procedures and user equipage.
approaches.                                        $959.2 million)
                                                                                                         FAA still intends to pursue Category 1 and
Contractor: Raytheon                                                    Airspace users must equip        plans to make a formal decision in 2007.
                                                                        to obtain benefits.              However, to provide Category 1 capability,
                                                                                                         FAA is now dependent on DOD enhancement
                                                                                                         to GPS satellites (a second civil signal for
                                                                                                         aviation use). Given shifting benefits, and
                                                                                                         uncertainty regarding DOD plans, we question
                                                                                                         whether or not FAA should commit funds for
                                                                                                         Category 1 development. A decision not to
                                                                                                         pursue Category 1 would significantly reduce
                                                                                                         WAAS’s $3.3 billion cost.
Exhibit D. Status of FAA’S Major Acquisitions (as of March 2005)
                                                           32




EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Kevin Dorsey                          Program Director

  Fidel Cornell                         Project Manager

  Melissa Pyron                         Senior Auditor

  Kathleen Huycke                       Editor




Exhibit E. Major Contributors to This Report
